UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General

Memorandum


August 18, 2004

To:     David B. Parker
        Acting Chief Information Officer

From:    Jane E. Altenhofen
         Inspector General

Subject: Inspection Report No. OIG-INS-33-04-05: Inspection of Software Licensing
         Agreements.

        The objective of this review was to determine the adequacy of controls over the
acquisition of computer software and compliance with licensing agreements. We
reviewed procurement controls at NLRB Headquarters, where procurement is centrally
managed, and compliance controls at both Headquarters and Regional Offices.

        Information Technology Branch (ITB) procurement files did not include
justifications for purchasing software or the number of licenses acquired, and in 2004 the
Agency purchased 200 more Microsoft Windows and Office licenses than their identified
need. This cost the Agency an estimated $43,618. The Agency renewed licenses for this
software to support 2,500 NLRB computers even though they had earlier determined that
the support requirement should be reduced to 2,300 computers. Our calculations, which
were agreed to by ITB, justified renewing only 2,200 licenses for this Microsoft software
and the other standard software, which would save the Agency an additional $28,400.

        Unauthorized software was found on 45 of the 90 Agency computers tested and
controls to prevent installation of unauthorized software were not functioning on some
computers. Also, the computers of all ITB and ITB on-site support contractors did not
have controls to prevent the installation of unauthorized software even though not all
personnel have job descriptions that necessitate them to load software. Some computers
tested contained both old and new versions of the same software.


SCOPE

        We interviewed NLRB staff in ITB to gain an understanding of controls over
software procurement and license compliance. We interviewed the Procurement and
Facilities Branch Contract and Procurement Section Chief to gain an understanding of

                                            1
their role in ITB procurements. We reviewed software procurement files to assess
effectiveness of controls. We reviewed the ITB software inventory listing, support for
specific listed license agreements, and contacted a Microsoft Corporation representative
to obtain an understanding of compliance requirements. We judgmentally selected and
tested 50 computers at Headquarters, and 10 computers at each of four Regional Offices
visited to assess the effectiveness of license compliance controls. Testing included
creating an inventory of the software on each computer and comparing it to the Agency's
inventory of authorized software. We also tested whether controls to prohibit loading
programs from floppy disks were functioning as intended. The Regional Offices that we
visited were - Region 3 (Buffalo), Region 9 (Cincinnati), Region 17 (Kansas City), and
Region 19 (Seattle).

       This inspection was conducted between April and June 2004 in accordance with
Quality Standards for Inspections.


BACKGROUND

        Software is copyrighted and its use is governed by copyright law and each
specific license agreement. License agreements generally provide for the use or
maintenance on up to a specified number of computers, for a defined time period.
Noncompliance with an agreement could potentially subject NLRB to an unbudgeted
payment to the vendor at high per license rates, civil or criminal penalties, or cancellation
of the agreement.

        NLRB's software is managed by ITB, under the direction of the Chief Information
Officer. The inventory of software managed includes about 200 different titles or
versions. NLRB's license for each title or version may provide for software use on a
single computer or on as many as 2,500. The software is installed on NLRB computers
at Headquarters and all 51 Regional, Subregional, and Resident Offices.

       NLRB spends about $1 million per year for computer software use or
maintenance licenses. The majority of this cost is for the suite of software needed to
operate workstation and laptop computers for NLRB employees and on-site contractors.
Additional specialized software is needed by some employees and is also required to
maintain the security of NLRB's computers and information.


ACQUISITION OF COMPUTER SOFTWARE

Justification For Procurement

       ITB procurement files did not include justifications for purchasing software or the
number of licenses acquired. The lack of justifications resulted in the Agency purchasing
more of some software than was necessary to support Agency operations, therefore


                                             2
incurring unnecessary cost. Software purchases without justification for the software or
the number of licenses included:

   •   2,500 licenses renewed for Microsoft Windows and Office procured on 1/30/04,
       at a cost of $545,225, although ITB's estimated Standard Image license
       requirement was 2,300.

   •   90 licenses for Microsoft Project procured 1/10 – 3/22/02 at a cost of $20,597,
       without justification for the number purchased. In addition, ITB could not
       identify the NLRB computers on which the software was installed.

   •   250 licenses renewed and 1 site license for Summation Blaze procured 10/16/03,
       at a cost of $17,500 without justification for the number purchased. ITB was
       unable to identify which computers had software or how often it was used.

   •   40 licenses for Microsoft FrontPage procured 3/8/02 – 4/14/03, at a cost of
       $4,113. ITB Procurement files contained a justification related to 10 other
       licenses for computers in the ITB Training Room.

        Office of Management and Budget (OMB) Circular No. A-123, Management
Accountability and Control, states, "Management controls must provide reasonable
assurance that assets are safeguarded against waste, loss, unauthorized use, and
misappropriation." The NLRB Administrative Policies and Procedures Manual requires
that procurement documentation include a complete justification and that the justification
be reviewed to ensure it is sufficient to support the expense as necessary. These
documents will serve as our procurement criteria throughout the report.

        The procurement files lack justifications, because the ITB Contracting Officer did
not obtain supporting information from the ITB Desktop Manager or the individuals and
organizations that requested software. ITB procures software based upon calls to the
Help Desk and renews license agreements based upon a general awareness that some
NLRB personnel still use the software. The Desktop Manager reviews the requests for
software and sends an e-mail to the Chief Information Officer requesting approval and
funds for the purchase. However, while procurement files reviewed did contain proper
approvals, they did not include justifications. ITB does not know how many personnel
use any specific software or how often it was used. As a result, ITB could be purchasing
or renewing licenses for software that is not required to support operations, using funds
that could be put to better use by the Agency.

Number of Standard Software Image Licenses

        The Agency purchased 100 more Standard Image Software licenses than was
necessary which cost the Agency an estimated $28,400. The number of Standard Image
licenses procured by ITB for NLRB's computers was based upon the number of Agency
e-mail accounts for individuals, plus a guess factor for computers without an assigned


                                            3
user, instead of the actual number of Agency computers that need software. Using the e-
mail account methodology resulted in NLRB purchasing more licenses than needed.

        ITB procures a standard suite of software for installation on all NLRB personnel
computers. This is known as a Standard Image. The Standard Image is intended to meet
the basic needs of all employees and on-site contractor personnel. ITB currently uses
2,300 as the number of licenses needed for each software title in the Standard Image.

       The ITB Customer Support Section Chief determined that 2,300 licenses were
needed by taking the number of Agency active Outlook e-mail accounts, totaling 2,200,
and adding 100 to allow for computers not assigned to individuals, such as computers in
the ITB Training Room, Library, Help Desk, and visitor/temporary/shared employee
workstations. The computation was not documented.

         We compared e-mail accounts with ITB computer inventory records and
determined that personnel with e-mail accounts do not necessarily have an NLRB
computer. We obtained data from the Human Resources Branch, showing that NLRB
had 1,886 full time and 92 part-time employees, for a total of 1,978 personnel, as of June
8, 2004. Security Branch records showed a total of 64 badges issued for contractor
employees, as of June 18, 2004, but only some of these individuals have NLRB
computers. This information indicates that NLRB needs less than 2,042 (1,978 + 64)
licenses for employees and contractors, plus additional licenses for "functional"
computers in the Training Room (13), Library (7), and Help Desk (11), or about 2,073
total licenses. Additional licenses may also be needed to allow for potential changes in
the number of employees and temporary use/shared/visitor workstations. In total, the
requirement appears close to 2,100, 200 less than the 2,300 purchased for FY 2003.

        According to the Customer Support Section Chief, she used the e-mail account
methodology because it was an easy way to develop a rough number. ITB had recently
taken the initiative, in response to a budget reduction, to look at the requirements number
and reduced it in 2003 from 2,500 to 2,300. ITB also purchased software to establish and
maintain a Headquarters Equipment Asset Tracking (HEAT) database, which includes
NLRB's computers and equipment. However, the HEAT database was not used as the
source for determining the Agency software requirement.

        In response to our questions about the determination of the Standard Image
requirement, the ITB Property Manager performed a HEAT database query to assess how
many computers require the standard software suite. The query showed 1,974 computers
assigned to personnel and another 111 functional computers, or a total requirement of
2,085. However, the Property Manager stated that some of the computers in the database
assigned to "Office" or "Vacant" could also be functional computers. ITB does not know
the actual use of the unassigned computers, if any.



       The cost of the Standard Image per computer each year is approximately:

                                             4
         Software Title                              Cost
         Adobe Acrobat Reader                            $ 0
         Adobe Capture/FormFlow                            14
         Micromedia Flash Player                            0
         Microsoft Office/Windows                         218
         Microsoft Windows Media Player                     0
         Novell Netware/Zenworks                           35
         Passlogix v-GO Single Sign-on                      6
         Symantec Antivirus                                11
         WinZip                                             0
            Annual Cost Per Computer                     $284

        NLRB could save approximately $284 per computer, per year, by performing a
detailed analysis of actual computers that need a Standard Image and reducing the
procurement requirement to that level. The Customer Support Section Chief, based upon
our information and other information that the Chief developed, agreed that the software
requirement could be reduced to 2,200 licenses. This reduction would more reasonably
align the software procurement with NLRB's need to support less than 1,900 employees.
This change would result in reducing the NLRB's software license cost by an estimated
$28,400 ($284 X 100 computers) per year.

Renewal of Microsoft Windows and Office Software License

       ITB renewed a $545,225 license agreement for Microsoft Windows and Office
software based upon a requirement to support 2,500 NLRB computers. However, ITB
had earlier determined that the support requirement should be reduced to 2,300
computers. Renewal of the agreement resulted in an unnecessary expense to the Agency.

        ITB renewed the 2,500-computer support license for Windows/Office on January
30, 2004, using an option on a 2002 agreement. On August 27, 2003, ITB renewed the
license for Symantec Antivirus software based upon requirement for 2,300 licenses.
Also, on February 24, 2004, ITB renewed the license for Adobe Capture/Forms Flow on
the basis of a requirement for 2,300 licenses.

       The Customer Support Section Chief authorized renewal of the license based
upon support for 2,500 computers, because of plans to renegotiate and consolidate the
agreement together with agreements for other Microsoft products early in 2004.

        NLRB paid Microsoft approximately $218 per license under the option. Because
the agreement provides for 2,500 licenses, instead of the 2,300 requirement, NLRB paid
$43,618 ($218 X 200) more than necessary.

Timing of License Renewals



                                           5
       ITB renewed five software license agreements after, instead of before, they
expired and the Agency continued to use the software. In each instance the software was
renewed within 30 days of the expiration date. Under the agreements NLRB may not
have rights to continued use or availability of support once a license expires. Delayed
renewal resulted in NLRB noncompliance with agreements and could result in the
unavailability of needed support.

        License agreements provide for Agency use or maintenance of software for a
specified time period. Maintenance agreements provide the Agency with updates to the
software to keep it compatible with other software, to allow it to continue to effectively
function for the intended purpose, and to provide for company support when operating
issues arise. At the end of the agreement period, the Agency has no right to continue to
receive maintenance support.

        These agreements were not renewed on time due to the lack of an ITB tracking
system to alert the Configuration Manager before licenses expire, due to incomplete
software license records needed to allow the Software Manager to determine the renewal
date, or due to inadequate follow up or follow through by the Configuration Manager, the
Customer Support Section Chief or the Contracting Officer to ensure renewal was
completed before the existing agreement expired. The late renewal places NLRB at risk
of operating without critical software support.

       In response to a suggestion made in our draft report, management stated that they
changed their process for identifying software licenses to be renewed. The process
includes using the database of software to create monthly reports identifying licenses that
will expire within the next 2 months. They claim that this will provide them ample time
to have funds approved and renewals purchased.


COMPLIANCE WITH LICENSING AGREEMENTS

Software Installed on Computers

       Unauthorized software was found on 45 Agency computers. A detailed schedule
of unauthorized software is included as an appendix to this report. NLRB has policies
and procedures to provide compliance with license agreements and ensure installation of
only authorized software, but these controls were not functioning. The control
weaknesses identified allowed installation of unauthorized software, potentially resulting
in noncompliance with license agreements, and risks to Agency security and operations.




Below is a summary of computers with unauthorized software.

             UNAUTHORIZED SOFTWARE ON NLRB COMPUTERS

                                             6
                 Headquarters Region 3 Region 9 Region 17 Region 19 Total
 Software Titles     58          5       14        19         3      99
 Computers           26          2       10         5         2      45

Installation Controls Ineffective

        ITB purchased and installed specialized software on NLRB computers to prevent
user installation of unauthorized software. This software, however, did not function on
seven computers. The location and number of computers that did not prevent users from
directly installing unauthorized software are summarized in the following table.

      COMPUTERS WITH INEFFECTIVE INSTALLATION CONTROLS

                   Location                 Number         Unauthorized
                                         of Computers        Software
          Headquarters                                4                 3
          Region 3                                    1                 0
          Region 9                                    0                 0
          Region 17                                   2                 2
          Region 19                          Not Tested        Not Tested
            Total                                     7                 5

        NLRB Administrative Policy Circular (APC) 99-09, Software and Configuration
Changes, states that only ITB personnel are authorized to install software on NLRB
computers. Authorized software consists of computer programs that ITB has approved
for use on NLRB computers. ITB has company licenses or approvals to use these
software programs. In addition, ITB has evaluated security and operational risks, and
appropriateness of the software for use on NLRB computers. ITB has purchased and
installed Zenworks software at a cost of more than $25,000 per year to prevent user
installation of unauthorized software on NLRB computers.

        According to ITB personnel, unauthorized software may be on NLRB computers
due to three primary reasons. First, Agency personnel are not adhering to the APC.
Second, Zenworks does not prevent personnel from downloading software from the
Internet. Third, Zenworks may not have been installed properly, or was deactivated. ITB
does not have the capability to remotely determine if unauthorized software is being
installed or Zenworks is functioning properly. ITB stated that regular manual review of
the effectiveness of controls on each NLRB computer by ITB personnel is not cost-
effective. Although the Customer Support Section Chief has plans to implement a
software inventory management tool that will provide regular information on what
programs are installed on each NLRB computer, the tool has not been installed.
        The existence of unauthorized software in the large volume and on the number of
computers found, and finding computers with non-functioning install controls at three of
four locations tested, indicates control weakness in the ITB software management
program. The weakness could potentially result in noncompliance with license

                                           7
agreements, subjecting the agency to added costs and penalties. The weakness could also
subject the Agency to security and operational risks, potentially resulting in a computer,
server or network being taken out of operation. The unauthorized software may also
consume vital space on computer hard drives, impacting the ability of the computer to
efficiently perform operational tasks. The weakness could also facilitate the use of
NLRB computers for non-business purposes. Finally, the weakness could result in more
calls to the ITB Help Desk to resolve software conflict and computer operation issues,
potentially increasing support contract costs.


OTHER MATTERS

Different Versions of Software

       Some computers tested contained both old and new versions of the same software.
While most computers had the current Standard Image, some were still running older
versions of certain Standard Image software. Two computers had the very latest version
of some software, which is not yet part of the Standard Image. Multiple versions of the
Standard Image software on computers included:

   •   Excel 95 and Excel 2000 (2000 standard)
   •   Outlook version 6.0 and 9.0 (9.0 standard)
   •   Adobe Acrobat Reader 4.0, 5.0, or 6.0 (6.0 standard)
   •   Media Player 6.4, 7.0, or 9.0 (7.0 standard)
   •   Internet Explorer 5.5 or 6.0 (6.0 standard)
   •   Novell Client for Windows 4.8, 4.81, or 4.83 (4.83 standard)
   •   Passlogix v-GO not installed on five computers
   •   Word 2000 9.0 or 9.0 SR-1, SR-2, or SR-3
   •   Windows 2000, with Hotfix KB823980, Hotfix KB824146, SP3, or SP4

        ITB's policy is to provide all employees with a Standard Image, which is intended
to help ensure compatibility and availability of support for all NLRB computers. ITB
personnel advised that older versions of software might not always have been removed
when new versions were installed. They also stated that employees may have
downloaded newer software versions from the Internet and that it is difficult to maintain
the same version of software on all computers, due to the large number and location
dispersion of computers and limited ITB and Regional Office staff involved. ITB has
initiated corrective action by developing a script that allows them to identify software
installed on each computer.

        Maintaining old software on a computer after installing an updated Standard
Image version unnecessarily consumes hard drive space. In some cases a computer may
have such limited free space that old software could potentially prevent the computer
user from loading or storing needed data or programs. Running a different version of
software on a computer could also result in compatibility issues. Incompatibility could


                                            8
result in a file transferred from one person to another not functioning properly or being
unusable. An older version of software may no longer be supported by the vendor,
potentially resulting in lost data if functional issues develop. The use of an older version
can also result in NLRB paying for a newer version, but not receiving the benefits.

Software Installation Controls

        The computers of all ITB and ITB on-site support contractors do not have
controls to prevent the installation of unauthorized software. Although ITB installed
Zenworks on all other NLRB computers in 2001 to control the installation of software on
computers, the ITB Chief did not place the control on ITB and its support contractors'
computers. The control was not installed on ITB computers on the basis that all
personnel needed to perform research and testing of new software or to assist in
troubleshooting computer and system operating anomalies. However, ITB management,
administrative, and other support personnel who are not involved in day to day testing
and troubleshooting activities should have Zenworks installed. Not including this
software on these workstations creates an additional unjustified risk that unauthorized
software could be installed, resulting in operating issues with that computer, potentially
other Agency computers, or the NLRB network.


HEAT Database

        The Acting Chief Information Officer stated that ITB has made great efforts to
improve its management of software licenses to ensure that the correct number of
licenses are purchased in a cost effective and timely manner. The NLRB computer
inventory maintained in the ITB HEAT database, however, contained several errors
related to a seven-person office. The errors raise question as to the reliability and
usefulness of the database. Errors noted included:

   •   One employee was recorded as the assigned user of computers on both the
       Headquarters 9th floor and 10th floor. The employee has not worked on the 10th
       floor for 2 years.
   •   One employee is the assigned user for three computers, but only has one.
   •   One employee not in the database was assigned a computer 1 ½ years ago.
   •   Barcodes numbers on office computers did not agree with the database.
   •   Two computers were recorded for a support contractors' office, but only one
       computer was in the room for 6 months.

       NLRB paid $7,627 for the maintenance license for HEAT in 2004, and invested
substantial time developing the database. If the data in HEAT is to be used to manage,
ITB needs to ensure that the data in the database is correct.


SUGGESTIONS


                                             9
We suggest that the Acting Chief Information Officer:

      1. Prepare justifications supporting each software purchase and include them in
         procurement files.

      2. Determine the number of Standard Image software licenses to be procured based
         upon the number of computers with an identified need, and document the
         determination in the procurement files.

      3. Implement a process for removal of existing unauthorized software and enhance
         controls to prevent installation of unauthorized software on NLRB computers.

      4. Establish a process to ensure uniformity of versions of software installed on
         NLRB computers.

      5. Evaluate the need for every ITB staff member and support contractor to have the
         ability to directly install software on the NLRB computer assigned to them.

Management Response

       The Acting Chief Information Officer stressed that ITB independently was in the
process of evaluating the Agency's licensing agreements and ITB's process and
procedures for managing software licenses. He also noted that ITB was in the midst of
implementing a Desktop Management Program that should implement several of the
suggestions. Management generally agreed with the findings and suggestions made in
our draft report and claimed to have implemented corrective action for one suggestion.


cc:      Board
         General Counsel




                                              10
APPENDIX
                               UNAUTHORIZED SOFTWARE ON NLRB COMPUTERS

Item
Count           SOFTWARE TITLE              Headquarters       Region 3   Region 9   Region 17   Region 19   Total
    1   Ad-aware                                 1                           1                                2
    2   Altnet Download Manager                                                         1                     1
    3   Big Money Deluxe                         1                                                            1
    4   Caere Scan Manager                                                              1                     1
    5   Co-Pilot                                 1                                                            1
    6   Collapse from Gamehouse                  1                                                            1
    7   Comet Cursor                             1                                                            1
    8   Cursor Mania                             1                                                            1
    9   Date Manager                             5                1                                           6
   10   Direct Mail Manager                      4                                                            4
   11   Ebates MoMoney Maker                                                            1                     1
   12   Executive Assistant                      2                                                            2
   13   Fun Web Products Installer               1                                                            1
   14   GAIN                                                      1                     2           1         4
   15   Gator CME II Client                      5                1                     2           1         9
   16   Google Toolbar                           1                           1                                2
   17   Hotbar                                   7                                                            7
   18   HuntBar                                                                         1                     1
   19   Intervideo Installer                                                            1                     1
  20    iWon Prize Machine                       1                                                            1
  21    Lycos Sidesearch                         1                                                            1
  22    Microsoft Forest Floor Stationery                                                1                    1
  23    Microsoft WINSPI                                                                 1                    1




                                                           1
                             UNAUTHORIZED SOFTWARE ON NLRB COMPUTERS

Item
Count           SOFTWARE TITLE            HQ        Region 3   Region 9   Region 17   Region 19   Total
  24    Minibug                            3                      1           1                     5
  25    My Way Speedbar                                                       1                     1
  26    My Web Search Bar                              1                                            1
  27    n-CASE                                                    1                                 1
  28    NetPal Games                                              1                                 1
  29    Nielsen Net Ratings               1                                                         1
  30    Olympus Camera Master             1                                                        1
  31    Pop Up Stopper                    1                                                         1
  32    Precision Time                    7            1                                            8
  33    RapidBlaster                      1                                                         1
  34    Real Download/Jukebox Player      1                                                         1
  35    Shopper Reports Adapter           6                                                         6
  36    SoundMax                          1                       9                                10
  37    Spinner Plus                      1                                  1                      2
  38    SpyBot                            1                                                         1
  39    Taxcut 2002                                                                      1          1
  40    TurboTax Deluxe 2003              1                                                         1
  41    Viewpoint Media Player                                                1                     1
  42    WebEx                                                                 1                     1
  43    Websearch Toolbar                                                     1                     1
  44    Webshots Desktop                                                      2                     2
           Unauthorized Software Totals   58           5         14          19          3         99
           Number of Computers            26           2         10           5          2         45




                                                2
